           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      INDIVIDUALS RECEIVING
       MULTIPLE CHILDHOOD
        DISABILITY BENEFITS

    September 2004   A-01-04-24078




AUDIT REPORT
                                 Mission
We improve SSA programs and operations and protect them against fraud,
waste, and abuse by conducting independent and objective audits,
evaluations, and investigations. We provide timely, useful, and reliable
information and advice to Administration officials, the Congress, and the
public.

                                   Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                     Vision
By conducting independent and objective audits, investigations, and
evaluations, we are agents of positive change striving for continuous
improvement in the Social Security Administration's programs, operations,
and management and in our own office.
                                           SOCIAL SECURITY

MEMORANDUM


Date:   September 16, 2004                                                                  Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Individuals Receiving Multiple Childhood Disability Benefits (A-01-04-24078)



        OBJECTIVE
        Our objective was to determine whether individuals who received multiple childhood
        disability benefits were entitled to the benefits paid to them.

        BACKGROUND

        Childhood disability benefits are authorized under Title II of the Social Security Act.1
        The adult child of a retired, disabled or deceased worker is entitled to childhood
        disability benefits based on the worker’s earnings if the individual is 18 years old or
        older and had a disability that began before he or she reached age 22.2 The Social
        Security Administration (SSA) paid approximately $410 million to 744,532 childhood
        disability beneficiaries in December 2002.3

        Individuals may be entitled to multiple childhood disability benefits (for example, based
        on the earnings of both parents), but may only be paid the higher of the two. When a
        childhood disability beneficiary becomes entitled to another, higher childhood disability
        benefit, SSA’s policy is to stop issuing the lower benefit payments, thus preventing an
        overpayment from occurring.4




        1
            The Social Security Act § 202(d); 42 U.S.C. § 402(d).
        2
            20 C.F.R. § 404.350.
        3
         SSA, Annual Statistical Report on the Social Security Disability Insurance Program, 2002, pg. 32 (issued
        August 2003).
        4
            SSA, Program Operations Manual System, section SM 00823.010.
Page 2 – The Commissioner


From a file of about 7 million Title II beneficiaries receiving disability benefits in
October 2003, we identified 160 beneficiaries whose Social Security numbers appeared
on multiple benefit records.5 Therefore, the beneficiaries appeared to be incorrectly
receiving multiple childhood disability benefits. (For additional information on our
methodology, see appendix B.)

RESULTS OF REVIEW                                                   Summary of Cases

Of the 160 childhood disability
cases we reviewed, 108 were not
entitled to $432,213 in benefits paid                 52 Cases                             68 Cases
                                                     Not Overpaid                          Overpaid
to them. This includes                                                                     $214,163
68 individuals whose overpayments                                        33%     42%       Identified
(totaling $214,163) were                                                                 Prior to Audit
discovered by SSA prior to our
audit, and 40 individuals whose                                            25%
overpayments (totaling                                      40 Cases
$218,050) were identified based on                          Overpaid
our audit.6 The remaining                                   $218,050
                                                            Identified
52 beneficiaries were not
                                                            Based on
overpaid.7                                                    Audit



BENEFICIARIES OVERPAID MULTIPLE CHILDHOOD DISABILITY BENEFITS

In total, 108 individuals were overpaid $432,213 because they received childhood
disability benefits on multiple records. The average overpayment was $4,002 over
15 months. The overpayments ranged from $60 to $57,479.

SSA identified and assessed $214,163 in overpayments for 68 cases prior to our audit.
For example, one beneficiary was overpaid from July 2002 through September 2003.
SSA detected the error and took corrective action in October 2003. As a result, ongoing
incorrect payments were stopped and the Agency began efforts to recover the
$4,616 that was incorrectly paid to the beneficiary.

5
  Of these 160 beneficiaries, 105 (66 percent) had mental disabilities and the remaining 55 beneficiaries
(34 percent) had disabilities that were not mental-related.
6
 For the 68 cases which were identified prior to our audit, the average overpayment was $3,149 over a
period of 12 months. For the 40 cases identified based on our audit, the average overpayment was
$5,451 over a period of 22 months.
7
  Of these 52 cases, 27 had incorrect Social Security numbers posted to their benefit records. Therefore,
these beneficiaries were not receiving multiple childhood disability benefits. (In November 2003, we
issued a report, Impact on SSA’s Programs When Auxiliary Beneficiaries Have Incorrect Social Security
Numbers (A-01-03-33020).) For the remaining 25 cases, SSA suspended benefits timely and no
overpayments resulted.
Page 3 – The Commissioner



Additionally, the Agency assessed $218,050 in overpayments for 40 cases based on
our audit.8 For example, a beneficiary was overpaid $3,829 from January 2003 through
December 2003. In January 2004, after we referred this case to SSA’s Office of
Operations for review, the Agency took corrective action and began efforts to recover
the overpayment.

OVERPAYMENT RECOVERY EFFORTS

Once SSA discovers that overpayments have occurred, the Agency must take action to
resolve the overpayments.9 Overpayments may be recovered, waived, or deemed
uncollectible. The table below illustrates the status of the overpayments (as of
March 2004) for the 108 beneficiaries who incorrectly received multiple childhood
disability benefits totaling $432,213.

                                                                Total
                             Table 1                                              Percent
                                                            Overpayments
            Recovery Efforts Underway10                           $291,982          68%

            Waived11                                                $85,563         20%

            Recovered12                                             $54,668         12%

            Total                                                 $432,213         100%




8
 On average, SSA took corrective action on these 40 cases 37 days after we referred them to the
Agency.
9
    The Social Security Act § 204(a); 42 U.S.C. § 404(a).
10
  This includes overpayments that were awaiting appeal or waiver decisions and overpayments for which
due process notification periods had not yet expired.
11
     Overpayments that were waived are not subject to further recovery efforts.
12
  This includes overpayments that SSA successfully recovered by refunds or by withholding a portion of
beneficiaries’ continuing monthly benefits.
Page 4 – The Commissioner


CONCLUSION
Of the 160 childhood disability cases in our audit population who appeared to be
receiving multiple benefits, 108 were not entitled to $432,213 in benefits paid to them.
Because of SSA’s prompt action to resolve these cases, the Agency was able to
prevent continued improper payments (one of the initiatives in the Fiscal Year 2002
President’s Management Agenda), and pursue recovery of the overpaid funds.

AGENCY COMMENTS

SSA agreed that the Agency must continue to take prompt action to prevent improper
payments. (See Appendix C for SSA’s comments.)




                                                S
                                                Patrick P. O'Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
C.F.R.   Code of Federal Regulations

SSA      Social Security Administration

U.S.C.   United States Code
                                                                               Appendix B

Scope and Methodology
As part of our audit to quantify undetected overpayments in the Social Security
Administration’s (SSA) disability programs, we analyzed a file of approximately 7 million
individuals receiving disability benefits in October 2003.1 Based on our initial review of
the data file, we identified 160 beneficiaries (out of the 7 million) who appeared to be
receiving childhood disability benefits on multiple benefit records (i.e., two auxiliary
benefit checks). Therefore, we initiated this separate review to determine whether
payments to these 160 beneficiaries were appropriate.

To accomplish our objective, we referred the 160 cases to SSA’s Office of Operations
for review and corrective action, if needed. We also researched the Social Security Act
and SSA’s regulations, policies and procedures related to childhood disability benefits.

We conducted our review between October 2003 and May 2004, in Boston,
Massachusetts. We determined that the data used for this audit was sufficiently reliable
to meet our audit objective. The principle entities audited were the SSA field offices and
program service centers under the Deputy Commissioner for Operations. We
conducted our audit in accordance with generally accepted government auditing
standards.




1
 We expect to issue our report, Undetected Overpayments in SSA’s Disability Programs
(A-01-04-24065), in Fiscal Year 2005.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 30, 2004                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Individuals Receiving Multiple Childhood
           Disability Benefits" (A-01-04-24078)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
AUDIT REPORT “INDIVIDUALS RECEIVING MULTIPLE CHILDHOOD
DISABILITY BENEFITS" (A-01-04-24078)


Thank you for the opportunity to review and comment on the draft report. We agree that the
Agency must continue to take prompt action to prevent improper payments. Further, we
appreciate the recognition of our work in this area.

The audit title and the entire draft report refer to individuals receiving multiple childhood
disability benefits. In order to receive multiple childhood disability benefits, an individual would
need to be found entitled as a disabled adult child (DAC) on two separate records (i.e., as an
auxiliary on two parents' records). However, after reviewing OIG’s methodology (identifying
individuals whose Social Security number (SSN) appears on multiple benefit records from the
7 million Title II disability records reviewed), it appears that the true focus of the audit is on
individuals receiving disability benefits on multiple SSNs. Such circumstances would most
likely involve individuals receiving disability benefits on their own SSN and DAC benefits on a
parent’s record. The report does not clarify whether the 108 individuals identified and overpaid
$432,213 are actually receiving “childhood disability benefits on multiple records” (i.e., two
auxiliary benefit checks) or “disability benefits on more than one record.”


[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report. We also modified Appendix B to
clarify that the cases reviewed for this audit involved individuals who actually received
childhood disability benefits on multiple records – the individuals received two auxiliary
benefit checks each month.]




                                              C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston (617) 565-1765

Acknowledgments
In addition to those named above:

   Jeffrey Brown, Auditor

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-01-04-24078.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits, assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
